<html>
<title> - STRENGTHENING AMERICA: SHOULD THE ISSUING OF VISAS BE VIEWED AS A DIPLOMATIC TOOL OR SECURITY MEASURE?</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
   STRENGTHENING AMERICA: SHOULD THE ISSUING OF VISAS BE VIEWED AS A 
                  DIPLOMATIC TOOL OR SECURITY MEASURE?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON THE CIVIL SERVICE,
                     CENSUS AND AGENCY ORGANIZATION

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 15, 2002

                               __________

                           Serial No. 107-206

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform



                                 ______

86-827              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on the Civil Service, Census and Agency Organization

                     DAVE WELDON, Florida, Chairman
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
CONSTANCE A. MORELLA, Maryland       MAJOR R. OWENS, New York
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
C.L. ``BUTCH'' OTTER, Idaho          ELIJAH E. CUMMINGS, Maryland

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                      Garry Ewing, Staff Director
             Melissa Krzeswicki, Professional Staff Member
                          Scott Sadler, Clerk
            Tania Shand, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 15, 2002....................................     1
Statement of:
    Glantz, Ken, Office of Homeland Security, Orange County 
      Sheriff's Office...........................................     9
    Hemphill, Tim, executive director, Kissimmee-St. Cloud 
      Convention and Visitors Bureau.............................    16
    Horner, Mike, president of the Kissimmee/Osceola County 
      Chamber of Commerce........................................    22
    Klein, John, deputy chief, city of Kissimmee Police 
      Department.................................................     7
    Risch, Carl C., attorney.....................................    39
    Tkacik, John J., Jr., research fellow, Asian Studies Center, 
      the Heritage Foundation....................................    29
Letters, statements, etc., submitted for the record by:
    Glantz, Ken, Office of Homeland Security, Orange County 
      Sheriff's Office, prepared statement of....................    11
    Hemphill, Tim, executive director, Kissimmee-St. Cloud 
      Convention and Visitors Bureau, prepared statement of......    18
    Risch, Carl C., attorney, prepared statement of..............    41
    Tkacik, John J., Jr., research fellow, Asian Studies Center, 
      the Heritage Foundation, prepared statement of.............    34
    Weldon, Hon. Dave, a Representative in Congress from the 
      State of Florida, prepared statement of....................     5


   STRENGTHENING AMERICA: SHOULD THE ISSUING OF VISAS BE VIEWED AS A 
                  DIPLOMATIC TOOL OR SECURITY MEASURE?

                              ----------                              


                         MONDAY, JULY 15, 2002

                  House of Representatives,
     Subcommittee on the Civil Service, Census and 
                               Agency Organization,
                            Committee on Government Reform,
                                                     Kissimmee, FL.
    The subcommittee met, pursuant to notice, at 9 a.m., at 
Kissimmee City Hall, 101 North Church Street, Kissimmee, FL, 
Hon. Dave Weldon (chairman of the subcommittee) presiding.
    Present: Representatives Weldon and Keller.
    Staff present: Garry Ewing, staff director; and Scott 
Sadler, clerk.
    Mr. Weldon. Good morning. Before I begin my opening 
statement, let me first thank the city of Kissimmee and its 
staff here at City Hall, particularly Wayne Larson and Ashley 
Innocenti, for giving up part of their Sunday and helping my 
staff put this important hearing together this morning. Without 
objection, Representative Ric Keller will participate in 
today's hearing.
    Today we will examine one of the most vital components of 
the President's proposal to establish a new Department of 
Homeland Security. Our homeland security starts abroad and 
nothing is more important than who gets approved for a visa to 
enter this country. The issuance of visas can no longer be 
thought of as a mere diplomatic function. We're in a war on 
terror and our embassies and consulates must be our Nation's 
first line of defense.
    Common sense tells us that the best way to protect 
Americans from foreign terrorists is to prevent terrorists from 
entering the United States in the first place. Just as we work 
hard to prevent biological, chemical or other weapons from ever 
making it to our shores, so we must keep terrorists' deadly 
weapons in and of themselves from reaching our homeland. A 
security focused visa issuance program is essential to achieve 
that goal.
    Before I go on, I'd like to show a brief news clip from the 
Fox News Channel that will shed more light on this issue. If we 
can go ahead and roll the tape.
    [News clip shown.]
    Mr. Weldon. We thank the staff for putting that together. 
Let me continue. All nineteen of the September 11th terrorists 
came to America after obtaining legal visas. This is 
unacceptable. The security of our Nation must begin abroad. 
Visa issuance should not be about speed and service with a 
smile.
    This process should be about close and careful examination 
of each and every visa applicant. Our security depends on it. 
The safety of the American people depends on it. While the 
President recognizes the importance of visa issuance and the 
obvious problems with the process, the current proposed 
legislation I feel very strongly does not go far enough. The 
State Department views the issuance of visas as a diplomatic 
tool and a cash cow that generates at least $500 million a year 
in fees. The day is past when it should be viewed this way. The 
responsibility for issuing visas should be with a department 
dedicated to protecting our shores; the Department of Homeland 
Security.
    However, I can't only cast aspersions on the State 
Department. Last week my colleagues on the Government Reform 
Committee and two other committees defeated an effort by Dan 
Burton from Indiana and myself to move visa operations to the 
Department of Homeland Security.
    So what seems like a no-brainer here in the heart of 
America is a difficult uphill battle in Washington. In 
Washington, too often people are more concerned with protecting 
their jurisdictions than protecting the American people. In 
Washington, too often politicians are more interested in 
protecting their party than protecting Americans. In 
Washington, bureaucracies protect their turf to the very end.
    But my like-minded colleagues and I are not finished yet. 
And we will attempt until the very end to do what is right and 
what is in the best interests of our constituents.
    Recent news reports have brought to light a program in 
Saudi Arabia called Visa Express. It allows private Saudi 
travel agents to process visa paperwork on behalf of Saudi and 
non-Saudi residents. Three of the September 11th terrorists 
obtained their visas this way; never being interviewed by 
anyone in the Consular Affairs Office.
    Fortunately, last week an amendment that I authored to 
eliminate the Visa Express program and prevent it from ever 
resurfacing was accepted, albeit by a narrow margin. I will 
continue to work hard to ensure that this amendment makes it 
into the final legislation signed by the President.
    Finally, my staff recently received a letter addressed to 
the Justice Department from the State Department stating that 
it is not enough that another governmental agency recommend 
that a visa be denied because that agency objects to the 
applicant's entry.
    The letter continues: Unfortunately, the information we 
have received from the Foreign Terrorists Tracking Task Force 
so far has been insufficient to permit a consular officer to 
deny a visa. The information we have received states only that 
the FTTTF, the Foreign Terrorists Tracking Task Force, believes 
the applicants may pose a threat to national security and 
therefore the FTTTF recommends against issuance.
    So there you have the heart of the problem. A 
recommendation from our law enforcement experts that certain 
applicants may pose a terrorist threat and shouldn't be issued 
visas and the State Department boldly saying no, they will get 
their visas despite the warning.
    It's apparent to me that the new Department of Homeland 
Security must take over the visa issuing process. The security 
of the American people must begin abroad.
    And with that, I would like to now recognize my colleague 
from Florida, Ric Keller, for an opening statement.
    Mr. Keller. Well, thank you, Congressman Weldon, and I want 
to begin thanking you for your leadership on this issue. As was 
seen in the Fox News clip, Congressman Weldon's really been one 
of the people we look to in Washington for guidance on this 
issue in light of his position and knowledge of these issues 
from serving on the Government Reform Committee. And I also 
want to thank the witnesses that are taking time out of their 
busy schedules to advise Congressman Weldon and myself and the 
other Members of Congress who will read your testimony.
    I want to thank the members of the public for taking the 
time out of their schedules to come here and finally I'd like 
to give a special thanks to the people from the city of 
Kissimmee for graciously hosting the event.
    Today we will be discussing a national security issue that 
has a direct impact on Central Florida's tourism-based economy; 
43 million tourists visit Central Florida every year. One out 
of every two of these tourists come here by airplane. And after 
September 11th because people became afraid to fly, we saw 
theme park attendance and hotel occupancy rates go down and 
unemployment go up. So the key to revitalizing our tourism-
based economy is to make sure people feel safe about getting on 
airplanes again.
    As Congressman Weldon mentioned, most of the nineteen 
terrorists received visas issued by the State Department and 
issuing visas to potential foreign terrorists we believe should 
be a matter of national security, not a diplomacy related 
issue. To be frank, there is a split in Congress as we speak 
right now on this issue. Should the entry level State 
Department officials with minimal law enforcement training be 
allowed to continue to issue visas or, on the other hand, 
should this function be considered a matter of national 
security and transferred to the Department of Homeland 
Security.
    Second related question is if this issuance of visas stays 
within the State Department, should their training and skills 
be upgraded so that they know what they're doing in terms of 
dealing with these potential foreign terrorists. On these 
issues, we welcome your input. Congressman Weldon and I will 
take your advice and suggestions back to Washington with us and 
the U.S. House of Representatives will resolve this issue one 
way or another before the August recess.
    And with that, Mr. Chairman, I will yield back the balance 
of my time.
    Mr. Weldon. Thank you, Ric, and again I want to thank you 
for being here and being part of this very important hearing.
    Our first panel today is a local one. I cannot tell you the 
importance of hearing from local people beyond the Washington 
beltway, those that I think truly are affected by the laws that 
we pass and the policies that we implement. It is particularly 
important to hear from people here in Central Florida. As my 
colleague just said, our Nation's No. 1 tourist destination is 
obviously an area of concern to all of us here in Central 
Florida that critical assets all over our Nation are protected.
    Joining us today are two representatives from local law 
enforcement, the first responders, and also two people from our 
business community and our tourism industry. We will hear from 
Deputy Chief of Police John Klein, city of Kissimmee. We will 
also hear from Lieutenant Ken Glantz, Office of Homeland 
Security with the Orange County Sheriff's Office. And after 
that, we will hear from Tim Hemphill, Executive Director of the 
Kissimmee/St. Cloud Convention and Visitors Bureau, along with 
Mike Horner, President of the Kissimmee/Osceola County Chamber 
of Commerce.
    [The prepared statement of Hon. Dave Weldon follows:]

    [GRAPHIC] [TIFF OMITTED] T6827.001
    
    [GRAPHIC] [TIFF OMITTED] T6827.002
    
    Mr. Weldon. I'd like to thank all of our witnesses for 
being here today, particularly on such short notice. It is the 
policy of the Government Reform Committee to swear in all 
witnesses who provide testimony at our hearings. Would the 
witnesses please rise?
    [Witnesses sworn.]
    Mr. Weldon. Let the record show that the witnesses 
responded in the affirmative. Gentlemen, you may be seated.
    Officer Klein, you may begin. We have a policy of trying to 
have our witnesses provide their verbal testimony in about 5 
minutes. We'll be flexible on that. For those of you who were 
able to submit written testimony, we will have your entire 
written testimony included in the record. This gives you an 
opportunity if you would like to summarize your written 
testimony from your verbal testimony; you can do that. Officer 
Klein, go ahead.

STATEMENT OF JOHN KLEIN, DEPUTY CHIEF, CITY OF KISSIMMEE POLICE 
                           DEPARTMENT

    Chief Klein. Good morning, Mr. Chairman and Representative 
Keller. I thank you for this opportunity to come and testify 
before your subcommittee. I apologize and regret that I was 
unable to prepare written comments prior to today's testimony 
given the expediency of the hearing and the expeditious notice, 
plus the process by which it was put together.
    I have to remark on the Fox News clip that I saw this 
morning. I have to really respectfully disagree with the 
statement I heard the Under Secretary of State make and that 
had to do with his reasoning behind why there were issues or 
difficulties in the visa approval process and those issues as 
he characterized them were it's really an issue, I believe he 
said, of people, personnel and space. And I would respectfully 
disagree with that.
    I think that what we're talking about here is an issue of 
national security. I think what we're talking about is the 
safety of the people, the American public. I think what we're 
talking about is an issue of security and accountability. 
That's the way I would characterize it.
    I was thinking about this this morning as I came in and the 
issue of who does what or which bureaucracy handles which, I've 
been in bureaucracies in government long enough to understand 
and appreciate territoriality and turf wars as they occur, but 
I think that the issues here transcend those territoriality and 
turf war common problems that people experience.
    I think that the safety and the security of the American 
public demands that. Accountability is an issue that we hear 
constantly bandied about in the United States with respect to 
public service and I would expect no less from either the 
Foreign Service or the Department of Homeland Security.
    When you bifurcate responsibility, you basically have no 
responsibility, in my mind, and if the proposals go forth as 
suggested that perhaps the State Department would continue to 
have either final approval or disapproval authority for visas 
and some other entity, be it Homeland Security or another, they 
would have the ability to set standards and I believe you 
basically would end up with no standards.
    I would liken that to me in Kissimmee having responsibility 
for public safety and having the responsibility to suppress 
and/or prevent the crimes of arson and having arson 
investigators hired by the Kissimmee Fire Department over which 
I have no control and holding me accountable for the work of 
the City Fire Department; similar analogy.
    A more down home reality that I thought of on my way riding 
in this morning is my wife always points out to me, if I have a 
problem in my house, an electrical problem or a plumbing 
problem, I call for an electrician or a plumber. I don't call 
for someone who's been to a Home Depot seminar or who's read a 
book or bought a book on home repair about how to fix the 
electricity and plumbing because I want an expert to do that. I 
want an expert who has been trained and more so I want an 
expert with experience in using discretion.
    Security jobs, police jobs, the jobs that we're talking 
about involve the exercise of discretion, unsupervised 
discretion for the most part because that's what these jobs are 
about. And the only way that one can properly exercise 
appropriate discretion, in my view, is with experience and 
continuing training. In the police field, as you'll hear from 
other witnesses perhaps, not only are we given a considerable 
amount of training before we begin our years of service, but we 
are continually retrained like any other profession.
    And, minimally, I would think that whoever is going to bear 
the responsibility for approving or disapproving or reviewing 
visas would not only have to have some very well-defined and 
well-reasoned and well-articulated standards. They would also 
have to have continual training upon which to build their 
experience and to build their basic knowledge upon which to 
exercise their discretion.
    Again, I go back to the fact that this is accountability 
we're talking about. We don't want to have a situation, in my 
view, of fingerpointing. If, God forbid, we were to have 
another incident of some type and the investigative process 
were then to focus on who made a mistake, who did what, who 
didn't do what that caused this or allowed this to occur, I 
don't think any of us would want to be in a position of trying 
to say, well, this was the State Department or this was the 
Department of Homeland Security or this was that or this was 
this person.
    I think what we're looking to do is design a system that 
works--that works as well as possible, that invests authority 
and financing and staffing with those agencies who are best-
equipped, best-suited, best-trained, best-supervised to provide 
those services so we don't have any fingerpointing. I hope 
that's a situation that would never come about.
    Having said those rather reflective remarks that I felt 
over the last day or so, I will certainly pass on to my other 
learned colleagues and be available to respond to any questions 
that the committee may have.
    Mr. Weldon. Thank you very much. That was very valuable.
    Officer Glantz, you're recognized for your testimony.

 STATEMENT OF KEN GLANTZ, OFFICE OF HOMELAND SECURITY, ORANGE 
                    COUNTY SHERIFF'S OFFICE

    Lieutenant Glantz. Mr. Chairman, Mr. Keller, members of the 
staff, thank you very much for inviting the views of the Orange 
County Sheriff's Office on such a vital matter.
    Orange County is the most popular tourist destination in 
the world. Over 43 million people visit Orange County yearly. 
Nearly 4 million of those visitors are international tourists. 
In addition, we host a plethora of worldwide and world-renowned 
attractions. We have a vested interest in securing our borders 
against terrorists.
    Today we are here to discuss the matter of transferring 
Consular Affairs from the U.S. Department of State to the new 
Department of Homeland Security. Basic security tenets 
establish that the first layer of security always begins at the 
perimeter and works its way to the core in layers. The 
embassies and consulates are our Nation's perimeter security 
posts and therefore represent our Nation's first line of 
defense against terrorism.
    The fact that fifteen of the nineteen September 11th 
terrorists obtained visas, three of which were obtained through 
the Visa Express program, is significant evidence that there 
are gaping holes in our Nation's first line of defense.
    Sound security principles must be in place to prevent 
terrorists from obtaining visas. We must be sure that visas are 
issued to tourists and not terrorists. Combined testimony given 
on June 26, 2002, established that under the Department of 
State, Consular Affairs' concern is primarily diplomatic. 
Security, however, is now a major concern and should be the 
primary concern.
    This indication illustrates a bifurcated approach to the 
Consular Affairs' function. This combined approach is contrary 
to the principles of security management. There must be a 
logical division of work, clear lines of authority and 
responsibility, coordination to meet organizational goals and 
most importantly, unity of command. This can be accomplished by 
bringing the Consular Affairs' function under the direction of 
one agency, the Department of Homeland Security. This would 
improve the Bureau's security coordination and communication 
with other Homeland Security related agencies.
    Additionally, the transfer of the Bureau of Consular 
Affairs to the Department of Homeland Security would be in line 
with the President's initiative to consolidate homeland 
security-related functions.
    According to congressional testimony given by Wayne Merry, 
most visa positions overseas are filled by young, 
inexperienced, probationary Foreign Service officers, most with 
no interest in consular work, but merely fulfilling a mandatory 
assignment before going on to the more glamorous diplomatic 
side of their profession.
    Mr. Nikolai Wenzel likened the consular position to hazing 
in a college fraternity, a right of passage, not relevant to 
their professional aspirations. Our Nation's first line of 
defense is an entry level position with nothing more than a 
warm body filling the position.
    This highly critical, high profile security function cannot 
be accomplished with a warm body. Just as law enforcement 
officers at the local, State and Federal level are screened and 
matched for employment, so should be the Consular officer. 
Additionally, there should be career paths within the Bureau 
that allow for advancement while remaining in the security 
function.
    According to testimony, in the majority of nations that do 
not participate in the Visa Waiver Program, applicants are only 
interviewed if, according to Joel Mowbray, they fail on paper 
first. Policies should reflect basic security principles. All 
information in the application packet should be verified 
through the interview process.
    This is our Nation's first contact with the foreign visitor 
or terrorist. We must verify that they are who they say they 
are, do the proper background checks, check the watch lists, 
ensure that they are entering the United States for legal 
reasons. Interviews are the most effective initial method of 
verifying the information submitted on a visa application. 
Foreign policy must be reexamined and changed to reflect 
security going into programs. Programs such as Visa Express 
place our Nation in serious jeopardy; they must be abolished. 
The fact that a terrorist can obtain a visa through a Saudi 
Arabian travel agency is irresponsible.
    Mr. Chairman, as host community of the world's most popular 
tourist destination, terrorism is a paramount concern. Over 4 
million of our visitors are from nations other than our own. 
Many of them are here on visas issued by the Bureau of Consular 
Affairs. By transferring the Bureau of Consular Affairs to the 
Department of Homeland Security, we ensure that our Nation's 
security is our No. 1 priority. We must be sure that tourists, 
not terrorists, are visiting our community. Thank you.
    Mr. Weldon. Thank you, Officer Glantz.
    [The prepared statement of Mr. Glantz follows:]

    [GRAPHIC] [TIFF OMITTED] T6827.003
    
    [GRAPHIC] [TIFF OMITTED] T6827.004
    
    [GRAPHIC] [TIFF OMITTED] T6827.005
    
    [GRAPHIC] [TIFF OMITTED] T6827.006
    
    [GRAPHIC] [TIFF OMITTED] T6827.007
    
    Mr. Weldon. Mr. Hemphill, you're now recognized for your 
testimony.

 STATEMENT OF TIM HEMPHILL, EXECUTIVE DIRECTOR, KISSIMMEE-ST. 
              CLOUD CONVENTION AND VISITORS BUREAU

    Mr. Hemphill. Thank you. Well, first and foremost, I'd like 
to thank Congressmen Weldon and Keller for seeking input on 
this important matter at the grassroots level where literally 
thousands of people's livelihoods depend on tourism on a daily 
basis. Almost 11,000 of Osceola County's work force is directly 
linked to tourism and almost fifty percent of the County's 
taxes are collected from tourism based sales or properties. Our 
schools, transportation network, local police and fire 
protection, social services all depend heavily on the vitality 
of tourism. This has never been more evident than in the recent 
9 months.
    The issuance of visas is not the only role of the Bureau of 
Consular Affairs. However, it is in that role that they serve 
as the gatekeepers for many of our international visits. 
International visitors account for nearly thirty percent of our 
business which virtually disappeared the days after September 
11th. This sector of our market can be literally the margin of 
difference in success or failure and in fact many of our hotels 
remain in a day-to-day mode today.
    The international market segment has gradually returned, 
but not near at the levels we had traditionally experienced and 
they are not expected to for quite some time. Among the 
impediments is the lingering uncertainty that our systems are 
still not what they should be and I applaud the Congressmen for 
demanding that all of our delivery systems be reexamined.
    In the meantime, competition has crept in and if we don't 
act soon, it will become ever more difficult to regain our 
market share. And I'll take advantage of this occasion to 
advance the idea that the United States needs to have a 
national tourism office. We can no longer afford to sit on the 
sidelines as every country imaginable enters the market. We 
have so many more competitors now, it is inconceivable that we 
don't have a national tourism office.
    In Osceola County, nearly one-third of our visitors were 
international pre-September 11th. Of the top twenty producing 
countries, citizens of nearly half of those are required to 
have a visa to enter the United States. Among the top ten 
countries needing visas are Venezuela, Mexico, Argentina, 
Colombia and Brazil.
    Clearly, the UK and Canada far outpace other countries in 
visitation to this area and their citizens are not required to 
have a visa, but in 2001, over 100,000 visitors came from 
Venezuela, for example, the third largest international market. 
Their citizens are required to have a visa to visit the United 
States.
    Osceola County in particular is friendly to the foreign 
visitors. In general, they feel very comfortable here. We have 
a vast array of lodging options, traditional resorts, hotels, 
condos, villas and short-term rentals. The particular culture 
of a country dictates what they are looking for and feel 
comfortable in. Few places offer as many options as Osceola 
county.
    Our industry, obviously, is very sensitive to the systems 
that deliver our foreign visitors. We recognize the importance 
of making certain that those systems are as fail-safe as 
possible. We cannot afford another incident. Of that, we are 
certain.
    The initial reaction to changes proposed to a system that 
has been so integral to tourism is defensive. Moving from 
diplomacy to security in mindset initially sounds like the 
value of customer service would be lost. A closer examination 
would likely conclude that the current system for issuing visas 
has not necessarily been without customer service issues. You 
often hear of the nightmares prospective visitors convey about 
their experiences.
    Striking a balance between homeland security and customer 
service will be the key. I am convinced that a system can be 
designed whereby the appropriate security measures are in place 
and we treat our prospective international visitors with the 
appropriate dignity and courtesy. I think we all know that some 
thing or things failed and we are compelled to give all the 
systems our utmost attention.
    For the long term, we would like there to be no measurable 
net difference in the number of visas issued. Should it take 
longer? Yes. Should we be surer of the background and purpose 
of the trips to the United States? Absolutely. Should our image 
as a country that welcomes international guests be maintained 
in the process? Most certainly.
    We all want the United States to be everyone around the 
world's dream vacation or holiday as it's called. In many 
cases, that starts with the issuance of a visa.
    Again, let me thank Congressmen Weldon and Keller for 
sponsoring this important occasion.
    Mr. Weldon. Thank you, Mr. Hemphill.
    [The prepared statement of Mr. Hemphill follows:]

    [GRAPHIC] [TIFF OMITTED] T6827.008
    
    [GRAPHIC] [TIFF OMITTED] T6827.009
    
    [GRAPHIC] [TIFF OMITTED] T6827.010
    
    [GRAPHIC] [TIFF OMITTED] T6827.011
    
    Mr. Weldon. Mr. Horner, you're recognized.

 STATEMENT OF MIKE HORNER, PRESIDENT OF THE KISSIMMEE/OSCEOLA 
                   COUNTY CHAMBER OF COMMERCE

    Mr. Horner. Thank you, Mr. Keller and Mr. Weldon, for 
giving me the opportunity to testify here this morning.
    The events of September 11th had a profound impact on our 
entire country. I believe that no region outside of New York 
City and Washington, DC, was more affected by the terrorist 
attacks than Central Florida.
    Our region is heavily dependent on tourism. After September 
11th, we saw a catastrophic decrease in the amount of tourists 
traveling to our area. This affected not only those who work 
directly in the hospitality industry, but our entire business 
community. Many businesses failed or were forced to cut back 
causing thousands of citizens to lose their jobs.
    It is clear the Federal Government must make every effort 
to keep would-be terrorists from entering the United States. 
The visa process is our first line of defense against those who 
would travel to our country to do us harm. Every step should be 
taken to make sure the visa process is sound and that those 
responsible are highly trained and motivated.
    Some may argue that a thorough visa review process will 
create delays that would be detrimental to the tourism 
industry. I would argue that nothing would be more harmful to 
the tourism industry than another terrorist attack. I would 
encourage you to support an exhaustive visa approval process 
operated by trained professionals who keep the safety of our 
homeland as their top priority.
    And I would like to follow suit with the officer who took 
issue with the Under Secretary who talked about it was an issue 
of resources and manpower. Though you can offer all the 
resources and all the manpower in the world, oftentimes, it's a 
matter of mission and the mission of the State Department is to 
ingratiate themselves in these foreign countries, to work with 
the folks in these foreign countries.
    The mission of homeland security is to protect our country 
and that's very different. You can have all the resources in 
the world, but it depends on the culture of the organization 
and clearly the homeland security is the department with the 
appropriate mission and the appropriate culture.
    I'd like to thank you for your vigilance in this matter. We 
are relying on leaders like you to ensure that the government 
is taking the steps necessary to protect our citizens and our 
way of life. Thank you for having me here today.
    Mr. Weldon. Thank you, Mr. Horner, and I want to thank all 
the witnesses and we'll now begin questioning. And I yield to 
my colleague from Florida, Congressman Keller, to begin the 
questioning.
    Mr. Keller. Thank you, Mr. Chairman, and I have a question 
for each of you. You all pointed out some very interesting 
things. Mr. Klein, you were pointing out something that's been 
a big concern to many of us who serve on the Judiciary 
Committee; and that is, while the Department of Homeland 
Security currently is planning on giving advice and guidelines 
to the Secretary of State employees and the Consulars Office, 
they would still be Secretary of State employees so having to 
serve two masters, so to speak.
    I think you were pointing out that if you had a situation 
at, let's say, the Kissimmee Police Department where one of the 
rank and file officers at the Kissimmee Police Department 
technically was under your command but I suppose if the Osceola 
County Sheriff's Office had the ability to hire and fire that 
officer and the sheriff's office had the responsibility of 
cutting the paycheck, he may not be as accountable to you; that 
we should have it streamlined so that there's only one person 
that you're trying to serve. Is that the gist of what you're 
getting at there?
    Chief Klein. Absolutely, Congressman. As a practical 
matter, decisions are being made at a low level of the 
organization based upon whatever set of criteria and guidelines 
they must be using for that purpose and the Department of 
State. And just as a fundamental matter of human nature, if 
you're an employee making those decisions, who are you going to 
be more responsive to; the people that do your performance 
ratings for you, the people that approve transfers for you, the 
people that can make your life much easier every day that you 
have to work with every day when you're in a foreign place.
    Just very fundamental, practical human considerations are 
what's going to dictate who you respond to and in what manner 
you respond. If you're seeking approval from your bosses so you 
can improve your long term posture in the organization, improve 
your family's consideration, those are the kinds of 
considerations just as human beings we're going to be taking 
into account when we make those decisions.
    You can have all the guidelines in the world, but if those 
guidelines are being promulgated by someone who's thousands or 
hundreds of miles away and whose approval your job or salary 
rests is sitting in the same room with you, that's the person 
you're going to respond to.
    Mr. Keller. Thank you. Lt. Glantz, one of the things we are 
concerned about in Congress is that the entry level State 
Department employees who are doing these interviews only have a 
couple of hours in law enforcement training in terms of fraud 
and interview techniques. I know that you're with the Homeland 
Security Section of Sheriff Beary's office. Give me a contrast 
of what kind of training it takes for someone to get a job in 
your section.
    Lieutenant Glantz. Well, in order to be a criminal 
investigator, most of the investigators have at least 40 hours 
of training and that's through different schools on interview 
and interrogation. Those people go on to a criminal 
investigation area and they also have some on-the-job training, 
which is considerable comparatively with the 5-hours or so that 
the Consular employee has.
    Mr. Keller. Thank you, Lt. Glantz.
    Mr. Hemphill, you pointed out the detrimental effects that 
September 11th had on our tourism-based economy. I was 
interested in hearing that about half of the taxes that we 
collect here in Osceola County come from tourists. Is this also 
having an impact on the ability of Osceola County and local 
government officials to fund our schools and our roads because 
of the decline in sales tax revenues?
    Mr. Hemphill. Most definitely. In fact, the budget process 
for the County by the County employees is underway now and this 
will probably be the most budget year with the most stressed 
resources that the County's ever experienced.
    Mr. Keller. Do you have any feeling of optimism that if we 
are successful on the war on terrorism in terms of tracking 
down these terrorists, whether either one by one and we tighten 
up the visa process and we do computer checks for terrorists on 
airlines so people feel good about flying again, that will be a 
positive benefit to the tourism economy here in Osceola County?
    Mr. Hemphill. Undoubtedly. It will return to normal levels 
in due time, but those measures have to be enforced.
    Mr. Keller. Mr. Horner, you mentioned that one of your 
concerns is that kind of the mindset at Consular Affairs, 
Secretary of State's office is that they want to ingratiate 
themselves with the country that they're in. I was thinking of 
a situation if a diplomat is over there and he has a very 
prominent--let's say he's in Saudi Arabia and he's looking at a 
visa application for a ne'er-do-well son of a very prominent 
businessman, you're concerned that their inclination to kind of 
ingratiate themselves with these countries and their prominent 
leaders would lead to a decision that was more lax than, say, 
if an FBI interviewer was looking at the same ne'er-do-well 
son. Is that the gist of it?
    Mr. Horner. Exactly. They've got a political concern as 
opposed to a security concern.
    Mr. Keller. Thank you very much. Congressman Weldon, I will 
yield back the balance of my time.
    Mr. Weldon. Thank you very much, Congressman Keller, for 
your very valuable input on this hearing. I wanted to just 
start off with a question for our two representatives from law 
enforcement. As you are aware, we had a hearing on this issue 
on June 26th and we took testimony from the Assistant Secretary 
of State who told the subcommittee that if we replaced Foreign 
Service officers with more security-minded personnel, we would 
end up with, ``rent-a-cops,'' on the visa line and that we 
wouldn't want that.
    What do you think of that statement? Do you want to comment 
on that? I certainly have some differing opinions on that, but 
I'd really rather hear your perspective as law enforcement 
officers.
    Chief Klein. Congressman, I also have a response to that. 
My response obviously wouldn't be fit for the record to print. 
I think that's a very specious statement, a very specious 
argument to make. I think that if you design a program and 
staff a program properly and give it the appropriate mission as 
my colleague has identified, you'll get basically what you're 
looking for.
    An example in the Federal service would be the most recent 
change with the sky marshals. There was a desire to 
professionalize or make the sky marshals more visible, have a 
much more dedicated function, security function in the air. In 
order to do so, the Federal department designed pretty exacting 
standards, pretty exacting requirements for experienced, 
primarily law enforcement people. They established a career 
path within the Federal service which would allow and which 
would also motivate officers who were otherwise not motivated 
to come into the Federal service, to come in with the 
understanding that they could provide service at a certain 
level for a certain period of time and have the opportunity of 
moving perhaps into Federal law enforcement service.
    I think that you get what you pay for and you get what you 
design. If you design a program where you're going to have 
airport screeners who are looking in bags and are being paid $5 
an hour, that's what you're going to get frankly. That's the 
level of service that you'll get.
    If you design a program that's intended to attract 
qualified, motivated, experienced, educated law enforcement 
personnel of which there are many throughout the country and 
you provide them with a career opportunity, that's exactly what 
you'll get; you'll get well-qualified, well-motivated, very 
talented, very energetic, mission-oriented security personnel; 
a security force that will do a good job for the country and 
you won't have to deal with these rent-a-cop issues that if you 
design otherwise, you'll get otherwise.
    Mr. Weldon. Lt. Glantz, did you want to elaborate on that?
    Lieutenant Glantz. Yes, Dr. Weldon. In Orange County, our 
deputies have a mission of tourist-oriented policing down in 
the International Drive area to the Walt Disney World area. Our 
deputies are trained, good policemen, have security issues 
forefront, work crime areas and they also are diplomatic to the 
tourists who are here in Orange County. It angers me to hear a 
statement where they call us rent-a-cops or they say that 
police officers won't be able to fill a mission if it's 
diplomatic. Police officers can be diplomatic. Like my 
colleague just said, you get what you pay for. And if you pay 
someone $5 an hour and they aren't trained, that's what you'll 
get. If you pay someone consummate what their job is, they will 
do the job for you if they have the education and the 
background and training and that's what you need to look for 
when you put a person in this position.
    The FBI, the CIA, local law enforcement have brilliant 
people working for them. They have some of the best shining 
stars that you'll see and I think that's one of the important 
things that you need to realize; that we're not rent-a-cops and 
that you wouldn't be filling this position with rent-a-cops.
    Mr. Weldon. Would you like to comment--as I understand it, 
the position of Consular Affairs' officer goes to the new 
recruits from the foreign service. So they graduate from 
college with a degree in whatever. It can be liberal arts. They 
take the foreign service exam. They get hired. And as I 
understand it, they get 2 weeks of training and a whole 
plethora of issues that Consular Affairs deals with which is a 
lot of other issues beside visa issuance.
    But specifically the visa issuance, part of their training, 
as I understand it, is a half a day. I'd ask all the panelists 
to comment on this, but particularly our representatives from 
law enforcement. Do you feel that is adequate for a level of 
training considering the impact that September 11th has had on 
this community, not only from the business sector, but we've 
also heard about from tax collection and its ultimate impact 
that it's going to have on education, for example, our ability 
to fund our school system. So I just would ask for your 
response to that. My thinking is that it's an inadequate amount 
of training and another reason why we need to move this over to 
the Department of Homeland Security.
    Lieutenant Glantz. Mr. Chairman, I agree with you 100 
percent. As far as the degree that they have in liberal arts, I 
don't think that makes a difference whatsoever. However, police 
officers receive approximately 600 hours of training before 
being allowed to go on the street; 600 hours comparatively to 2 
weeks or a half a day. If we move to a security-minded Consular 
officer, then they need to have much more training like a 
person who's going to become a sky marshall.
    They need to go to academy. They'll need to go to some type 
of security academy to get the adequate training. Interview and 
interrogation training would be part of it. Diplomatic training 
would be part of it. They would have to learn to use equipment 
such as voice stress analysis equipment which could be used to 
verify the answers that are given on the applications, on the 
visa applications. There's a lot of training that could be put 
into becoming a Consular Officer and I believe you are 
absolutely right. Five hours is not adequate training.
    Chief Klein. Mr. Chairman, I think for that type of a job, 
if part of your role was to review and approve or deny visa 
applications, in my sense based on my experience in law 
enforcement, that's not something you can hire someone who has 
a college degree with no background in law enforcement to come 
in and do as part of their duties. It just frankly is not.
    To be able to make judgments about someone being a security 
risk, to be able to review and access documents, to be able to 
judge whether documents are fraudulent, to be able to look at 
people and make judgments as to whether they are being truthful 
with you, to be able to exercise discretion in a law 
enforcement context, are things that can't be learned in a 
classroom. Those are the things that require experience. Those 
are things that require having been, to use the phrase, ``in 
the field,'' you need to be able to have a different range of 
skills to be able to perform that type of a function than you 
do to be able to perform other diplomatic functions or other 
functions related to education.
    The issue of security is somewhat unique and people may 
refer to some people in the law enforcement profession as rent-
a-cops, but the training and experience that you get in dealing 
with people in the law enforcement business is much different 
than you can get in any other type of educational background. 
And I don't think that any amount of classroom training, 
certainly not 4 hours, could even adequately acquaint or 
familiarize someone to perform that type of a function if you 
are serious about performing the visa function in a very 
serious and conscientious and mission-oriented fashion.
    Mr. Weldon. Mr. Horner, did you want to add to that at all?
    Mr. Horner. I would like to say even if the State 
Department would upgrade their training, which I think everyone 
here would agree the training is inadequate, it still comes 
back, not to be a broken record, to mission. Even if you could 
provide that adequate training, what is the organization 
placing emphasis on? And I think that an organization that 
places security as their top goal would be in a better position 
to provide that service.
    Mr. Weldon. Mr. Hemphill, could you just speculate for the 
record what potentially could be the impact--and I ask you, Mr. 
Horner, as well--of another major attack on the United States 
here in Central Florida?
    Mr. Hemphill. It would be devastating and I'm not certain 
that we could recover. We're all pretty confident that we're 
recovering from the previous one, but I'm not sure we'd be able 
to recover in the tourism industry from another such incident.
    Mr. Weldon. You mentioned before I asked you to comment on 
that--you mentioned a couple of times in your testimony 
competition. Could you elaborate on that a little bit?
    Mr. Hemphill. Well, in the global market now and it's 
happened in only a few short years, from a marketing 
standpoint, you can look through a travel guide now and see 
countries that are trying to get people to visit their 
countries that you never would have imagined would be in the 
market.
    Mr. Weldon. Can you cite a few for example?
    Mr. Hemphill. Vietnam.
    Mr. Weldon. Vietnam?
    Mr. Hemphill. Vietnam. Cuba.
    Mr. Weldon. Warm climate in the winter months; is that what 
we're looking at here?
    Mr. Hemphill. Yes. The competition is fierce and we can't 
afford any occasion to allow additional competition. We're just 
losing markets. I know that sounds like we're kind of getting 
off target in the issue of security measures, but all of these 
types of things allow more competition.
    Mr. Weldon. I don't think it's not involved with our 
discussion here. If the United States were to be hit again and 
again by more terrorist attacks, I think you could see more and 
more international visitors selecting what is perceived by them 
to be a safer location to take their vacation.
    Mr. Hemphill. Mr. Chairman, a good example of that 
currently is our UK visitors are down. Their next obvious 
option is Spain and once they get comfortable going to Spain, 
will we be able to get them back? I'm not sure we will, but 
that's a great example of competition.
    Mr. Weldon. Do any of you have any more comments that you 
want to add? I just have one more question for our 
representatives in law enforcement. One of the arguments put 
forth by State Department officials is giving a visa is just 
one step and that they come here and they get interviewed by 
INS when the plane lands and they have to go through customs 
and immigration and it's really a two-step process.
    I agree with your comments, Lt. Glantz, about placing the 
focus is at the perimeter. You want to comment on that at all? 
I personally don't see that as a valid argument to leaving them 
in diplomatic function. I would still prefer to move them to a 
security organization. The planes land and there's a lot of 
pressure to get the people through the lines quickly and out to 
the hotels. Your thoughts on that?
    Lieutenant Glantz. Mr. Chairman, prior testimony indicated 
that INS receives the foreign visitors here and if they don't 
have a lot of luggage looking like they're going to be here for 
3 or 4 months, they pass them right through at the INS station. 
INS, of course, could beef that up. However, I would remain to 
say that we need that perimeter post to be our first line of 
defense and if we don't have a strong first line of defense, 
we're got them here to this country and we have to rely on 
another system. Let's take them out at the first opportunity.
    Chief Klein. Just again as a more practical way of looking 
at things, the first step is always the hardest step and once 
people get onto our shores, we have a whole plethora of other 
issues that arise and local law enforcement and the INS. We are 
continually subjected to discussions or allegations of 
profiling, of grouping of certain nationalities or ethnic 
groups for the improper or inappropriate services. We have the 
ACLU who does a fine job in many areas, but there are other 
types of pressures and other things that are brought to bear 
once people hit our shores.
    So I think the first step being the hardest step, the first 
step should be the hardest step. And once you can get past that 
threshold, then perhaps there's a different type of scrutiny 
that you can be subjected to when you're entitled to the type 
of things that we give our citizens on this shore. But that 
first step should be the hardest step.
    Mr. Weldon. Just one last question to the whole panel: We 
were debating this issue in the Congress in committee just last 
Thursday. One of the arguments--and I've heard this argument 
over and over again put forward--is that the Consular Affairs 
position is the first station that diplomats go to and it's a 
career development issue for the diplomatic corps and if you 
want to have well-seasoned diplomats, you need this opening 
position for them to move into and that moving Consular Affairs 
to Homeland Security would be very disruptive to the career 
paths of diplomatic officers.
    Would you like to comment on that at all?
    Mr. Horner. I would just say that in Central Florida alone, 
we had tens of thousands, hundreds of thousands of folks' 
career path disrupted with that September 11th attack, not to 
mention D.C. and New York City. There's got to be an 
alternative--an alternate first step for these junior diplomats 
to go through besides the issuance of visas.
    Mr. Hemphill. Chairman, I think in this particular 
discussion or in all discussions related to homeland security, 
I think diplomacy is the sacred cow. I think certainly it is in 
the diplomatic corps and the State Department and all those 
departments feel like it's a sacred cow and I don't envision 
that whatever it might affect in terms of career paths, it 
shouldn't be changed or couldn't be changed. I really think 
that everything should be on the table and every system should 
be examined and this is one very important argument.
    Lieutenant Glantz. If the Consular position was to be moved 
over to the Homeland Security Department, I'm sure there'd be 
an alternative and that is a career path for the people who 
come who want to be diplomats. If it is moved over, it would be 
very important for the career path within the Bureau to offer 
advancement and remain in a security function.
    Chief Klein. I've got the same type of reaction to that 
statement that I had to the Under Secretary's response that 
this is merely an issue about space or personnel or people. If 
the issue is security, if the issue is national security, I 
believe that's what the issue is as the President has said, 
then issues of career paths or issues of who moves from which 
job or what job are incidental when you're looking at security. 
There are ways to work around this and I think people need to 
take a hard look at what the President wants us to do and wants 
the Office of Homeland Security to do. If security is what they 
are supposed to be doing, than there are ways to deal with 
career path issues and bureaucracies.
    Mr. Weldon. Well, I want to thank all of our witnesses in 
the first panel. Thank you for taking the time out from your 
schedules to be here. It was extremely valuable testimony and 
it will be very, very useful for us as we continue to debate 
this very important issue. The House hopes to pass their final 
version of the bill out before we recess for the August recess, 
which we'll be recessing at the end of July. And then when we 
return, hopefully we take up the final version of the bill and 
the goal is to have this new Department of Homeland Security 
created by the anniversary of September 11th if possible. It's 
a very big issue and we may not be able to get that done, but 
your testimony is a valuable input in the process. Thank you 
again for being here.
    We will now recess for 5 minutes while we call up the 
second panel.
    [Recess.]
    Mr. Weldon. The committee's hearing will now resume. I 
apologize to our witnesses for keeping you waiting. Certainly 
we appreciate you being here as well. An important component in 
understanding the issuance of visas is to hear from those who 
have actually served on the visa lines in the State Department. 
We have two excellent witnesses today and I thank them for 
taking time out of their busy schedules to travel to Kissimmee 
to join us this morning.
    First we will hear from John J. Tkacik. Did I pronounce 
your name correctly, sir?
    Mr. Thacik. Yes.
    Mr. Weldon. Research Fellow for China, Taiwan and Mongolia, 
Asian Studies Center and The Heritage Foundation and a former 
23-year State Department employee. Then we will hear from Carl 
C. Risch and your name is pronounced correctly, also?
    Mr. Risch. Yes, sir.
    Mr. Weldon. Mr. Risch is currently an attorney, practices 
law in Pennsylvania, I believe, but importantly is a former 
Foreign Service officer in the State Department and I believe 
also has some firsthand experience of Consular Affairs.
    Gentlemen, if you could both please stand, raise your right 
hand.
    [Witness sworn.]
    Mr. Weldon. Let the record show that the witnesses 
responded in the affirmative. Mr. Tkacik, you're recognized for 
your opening statement.

   STATEMENT OF JOHN J. TKACIK, JR., RESEARCH FELLOW, ASIAN 
            STUDIES CENTER, THE HERITAGE FOUNDATION

    Mr. Thacik. Chairman Weldon, thank you very much for 
inviting me to testify today on the proposed legislation which 
gives the new Department of Homeland Security exclusive 
authority over the visa function.
    Before I begin, let me say that the opinions I give here 
today are entirely my own and should not be construed as 
representing any official stance of the Heritage Foundation. 
Although I am a research fellow for China policy at the 
Heritage Foundation in Washington, DC, I have considerable 
experience in visa and immigration issues. I served for 23 
years in the Department of State, including 2 years as 
Supervisory Consular Officer at Peking at the U.S. Embassy in 
China and 3 years as the Chief of the visa Section at the 
American Consulate General in Hong Kong which at the time was 
the third largest visa issuing post in the world.
    I also spent several years as Chief of China Analysis in 
the State Department's Bureau of Intelligence and Research and 
I think appropriately to this hearing from 1986 to 1988, I was 
the chief of Junior Officer Training which is the A-100 course 
at the Foreign Service Institute.
    First, let me say that there appears to be universal 
agreement in the administration that the U.S. consuls abroad 
who adjudicate visa applications by foreign visitors and 
hopeful immigrants are within the first line of America's 
defense against global terror networks. I think in recognition 
of this, the administration's proposed legislation creating the 
Department of Homeland Security removes the visa function from 
the State Department and places it in DHS. But I note that in 
the wording of the administration's proposed legislation, it 
says that the DHS secretary, ``shall have exclusive authority 
through the Secretary of State,'' to issue visas and administer 
and enforce visa laws.
    Now, this seems inconsistent to have exclusive authority 
through another secretary, cabinet secretary, but I think there 
are logical ways to work this out and I think the key to this 
is to move the State Department's Office of Visa Services known 
as the Visa Office or VO into the new DHS.
    Now, having been in the Foreign Service for 23, 24 years, I 
understand that the State Department does want its own consuls 
overseas to continue performing visa functions. For years, 
local sensibilities and U.S. Ambassadors' concerns for 
unsightly visa lines and strict enforcement of visa denials 
have encouraged the visa function overseas to be managed more 
as a service and not as a screen. It's a matter of priorities.
    While visa consuls should be Foreign Service officers 
within the Department of State, I believe, at the very least, 
the U.S. Government's preeminent office controlling visa policy 
and operations, State's visa office, must reside where the 
Congress places the authority for those functions; in the 
Department of Homeland Security.
    And if the Department of Homeland Security is to be 
accountable for its authority, then it should have its own 
officers overseas to monitor and supervise these operations. 
And I think this is called for in the administration's bill. I 
think to do otherwise, the reorganization of the DHS will just 
be business as usual and only the names on the door will 
change. Foreign Service officers will continue to man the visa 
offices under the guidance and oversight of the DHS. And that's 
the way it should be.
    Now, the DHS must assume total control over visa policies 
and support services. An important provision of the Bush 
administration's proposed Homeland Security Act of 2002 is the 
placement of the country's border and transportation security 
responsibilities within DHS including the transfer of the 
immigration service to the new department. Section 403 of the 
proposed legislation transfers, ``control,'' over the issuance 
and denial of visas to enter the United States to the DHS, 
``while preserving the Secretary of State's traditional 
authority to deny visas to aliens based upon foreign policy 
interests of the United States.''
    Now, this appears to be the rationale for trying to keep 
the visa function within the State Department which is to say 
the Secretary of State has this traditional authority, but I 
will note that this traditional authority which is embodied in 
Section 212(a)(3)(c) of the Immigration and Nationality Act is 
used very rarely. The last year that we have statistics which 
is 1999, it was not used at all in that year. So I don't think 
that you can justify moving any part of the visa function 
into--keeping any part of the visa function in the State 
Department under this ground of reasoning, much less all of the 
visa authority.
    I think in the interest of time, I'm going to skip to why 
there must be a visa attache at the U.S. Embassies. I think 
State Department officers still can perform the bulk of visa 
functions overseas as has been earlier mentioned. It is 
considered part of the training program for junior officers and 
I, having been the chief of Junior Service Training for 2 
years, understand that. But I think simply put, without formal 
onsite monitoring of the visa lines by DHS, there is no control 
of accountability. I think if DHS is to control the issuance 
and denials of visas, DHS must have a supervisory attache 
commission, of course, as a U.S. consul or vice consul assigned 
to each embassy and each visa issuing consulate to provide 
oversight, continuous monitoring and training and 
indoctrination on visas. The DHS attache also must have 
statutory authority to overrule a visa officer's issuances or 
refusals on at least homeland security grounds.
    And I see that in the amendment to the Burton Substitute 
offered by Mr. Lantos and Ms. Ros-Lehtinen, H.R. 5005, there 
doesn't seem to be the authority to refuse visa applications 
and develop programs of training of Consular officers as part 
of that. And in addition, the proposed legislation that came 
out of the subcommittee markup on Thursday night, I believe it 
was, also calls for the review of any or all such applications 
prior to their adjudication either on the initiative of the 
employee of the Department of Homeland Security or upon request 
of the Consular officer. I think this makes absolute sense and 
I think at the very least, this is essential to the effective 
functioning of the Department of Homeland Security in the visa 
process.
    Now, if the DHS attache overseas is to provide a value 
added, then he or she should have full access to all the DHS 
data bases; and by this, I mean all domestic and foreign data 
bases, including U.S. national crime indices, and that access 
should be at a secure site at the embassy or consulate.
    In many cases where visa sections overseas are located in 
an unsecure venue physically distant from the embassy, this 
would mean that the DHS officer should have two offices. A DHS 
section abroad in an embassy would also involve an increase in 
the staff, as few as one per visa issuing post, but as many as 
five in large posts. This may in fact involve as many as 300 
additional DHS employees overseas.
    However, the actual visa issuance at embassies and 
consulates abroad could and I think should continue to be 
handled by Foreign Service officers. In the longer term, the 
DHS visa office, once presuming it is moved into the--the visa 
office is moved into DHS, will be responsible for developing 
training programs for junior State Department Foreign Service 
officers as they go out to an embassy. And the DHS visa office 
will be required to develop this specialized software to 
monitor the visa issuance.
    Ideally, DHS should supervise and fund the program at the 
State Department's Foreign Service Institute which would 
indoctrinate FSOs in terrorism profiling, terrorism 
organizations and operations and terrorism documentation in 
addition to the existing visa course. The program would be a 
part of the State Department's FSI's Consular Course and must 
be developed in conjunction with the Central Intelligence 
Agency, the Federal Bureau of Investigation and the Department 
of State's own coordinator for counterterrorism.
    I think in the transition period as DHS begins to assume 
control for visa policies, the State Department Consular 
section chiefs in American embassies abroad must be brought 
back to the United States for a period of training and 
indoctrination on homeland security in a program designed to 
sharpen visa supervision and oversight until DHS attaches can 
be assigned.
    Now, separately in the longer term, DHS must develop 
Management Information System software to monitor visa 
issuances overseas. This software would be developed by the 
visa office to interface with its existing automated visa 
issuance systems which are already in place. AVLOS and CLOK, 
the automated visa lookout system and the classified lookout 
book are indices--these indices as well have to be integrated 
into the automated visa issuance systems and these separate 
data bases will enable the DHS attache at post to review visa 
officer processing of applications as well as to give him or 
her access to visa data bases for investigation and 
intelligence purposes.
    Improvements in computer hardware memory, clock speeds as 
well as broadband data transmission rates also permit the 
retention of all visa applications in a centralized DHS data 
base. To depart from my prepared testimony, I should note that 
at present, issued visas, records of issued visas I believe are 
dumped after 1 year. As a result, a year after a visa is 
issued, you can't go back and check what happened to that visa.
    I think finally in more advanced countries, the use of 
data-mining software can speed local background checks for visa 
issuance. With a minimum of intrusiveness, such techniques 
could quickly identify visa applicants who have not established 
themselves in their communities and hence fit a threat profile. 
Nonetheless, speed of visa issuances should not be the top 
priority in a wartime environment and a reasonable period 
should be built into the visa process to ensure that reliable 
name-checks are made.
    So let me sum up. The visa function should be to the new 
DHS. Section 403 of the administration's proposed Homeland 
Security Act of 2002 recognized that effective homeland defense 
requires that the new Department of Homeland Security should 
control the visa function and that the Secretary of Homeland 
Security shall have exclusive authority to issue or refuse 
visas. I agree with that.
    Second, the DHS must have a meaningful presence overseas. 
Control and authority are empty words unless the Visa Office, 
now under the Department of State, is transferred to the new 
DHS and unless the DHS officers overseas have some effective 
supervisory authority over visa issuances abroad. And again, as 
I say, I'm happy to see that seems to be in the existing 
markup.
    Third, Consular officers should continue to perform visa 
functions overseas. This does not require that all or even most 
visa officers overseas must be DHS employees. Both DHS and 
State will benefit if the bulk of the overseas visa function is 
conducted by State Department Foreign Service officers.
    Fourth, the DHS should have direct monitoring authority of 
overseas visa operations via the DHS attaches at all visa 
posts, and this includes most embassies, and those attaches 
must have consular commissions.
    And finally, the DHS Visa Office will and must take the 
responsibility of training, indoctrinating and equipping visa 
officers abroad and ensuring that they or their supervisors 
have access to the relevant intelligence and name-check data 
bases needed to screen alien visa applicants effectively.
    That concludes my prepared presentation. I'm happy to 
answer any questions.
    Mr. Weldon. Thank you very much.
    [The prepared statement of Mr. Tkacik follows:]

    [GRAPHIC] [TIFF OMITTED] T6827.012
    
    [GRAPHIC] [TIFF OMITTED] T6827.013
    
    [GRAPHIC] [TIFF OMITTED] T6827.014
    
    [GRAPHIC] [TIFF OMITTED] T6827.015
    
    [GRAPHIC] [TIFF OMITTED] T6827.016
    
    Mr. Weldon. Mr. Risch, you're now recognized for your 
testimony.

              STATEMENT OF CARL C. RISCH, ATTORNEY

    Mr. Risch. Thank you, Mr. Chairman, for allowing me to come 
and testify on such an important issue. My name is Carl Risch 
and I'm a former Foreign Service officer of the U.S. Department 
of State having served from 1999 until 2002. From 2000 until 
2002, I served as Vice Consul at the Consulate General in 
Amsterdam, the Netherlands, where I managed the Nonimmigrant 
Visa Unit for 15 months, including on September 11, 2001.
    During my tenure as Unit Chief, I adjudicated approximately 
25,000 visa applications. I resigned in May 2002 even though I 
received top evaluations and a challenging onward assignment. 
While I longed to return to my private law practice, I was also 
discouraged by the State Department's lack of dedication to the 
effective enforcement of the immigration laws of the United 
States. I took my job very seriously. The State Department did 
not.
    Unlike other witnesses you've seen, I never served in a so-
called visa mill. In fact, I experienced the best the State 
Department has to offer; a tour in a first class, Western 
European city and at a post with no staffing problems and a 
high visa issuance rate.
    The fact that even I was terrified by State's incompetence 
and apathy toward law enforcement proves just how far this 
problem has progressed. I urge the Congress to support the 
transfer of the visa issuing function from State's Bureau of 
Consular Affairs to the new Department of Homeland Security, a 
department that will be committed to the rule of law and the 
national security of the United States.
    During my tour in Amsterdam, I observed two primary 
institutional problems with the way the State administers 
visas. First, State routinely sacrifices the rule of law in 
order to further its diplomatic goals and ignores the impact 
this may have on national security. Second, State considers 
visa adjudication to be a right of passage of all Foreign 
Service officers, even the vast majority who are disinterested 
in consular service.
    The State Department is by definition a diplomatic 
institution. Our officers at posts abroad work hard to improve 
America's image overseas. Adjudicating visa applications, 
however, has nothing to do with diplomacy. Immigration law like 
environmental regulations and the tax code is a complex, 
specialized set of rules which allows foreign nationals to 
apply for permission to travel to the United States. The proper 
administration of these laws requires strict adherence to the 
rule of law even when decisions are unpopular.
    State's diplomatic function has proven too inconsistent 
with this law enforcement function for it to be trusted with 
this responsibility. The result has been a visa policy whereby 
the rule of law is repeatedly sacrificed to please host country 
officials and important contacts in reckless disregard of the 
impact on national security.
    Just one example: While serving in Amsterdam, I interviewed 
a Tanzanian who wanted to visit the United States. He had only 
been in Holland for a few days as a visitor. He could not 
articulate a single reason for wanting to visit the United 
States or even give a specific geographic destination for his 
trip. He had no evidence of employment or other ties to 
Tanzania or any other country.
    I refused his application for failure to prove his 
qualifications for a visit to visit the United States. Less 
than an hour later, a high-ranking official called me into his 
office. Apparently, a local VIP had called to report that he 
was disappointed to hear that his neighbor's safari jeep driver 
from Tanzania had been denied a visa.
    After the State official apologized to the neighbor for any 
inconvenience this man caused, I was then directed to issue the 
visa. The fact that the applicant did not qualify for a visa 
under any reasonable interpretation of the Immigration and 
Nationality Act did not seem to bother the official. The only 
thing that mattered was the diplomatic mission. Only an agency 
committed to law enforcement and not diplomacy should be 
trusted with enforcing the laws as intended by Congress.
    State's record on visa worsens when one views its staffing 
policy. Simply put, State views visa adjudication as garbage 
work to be delegated to the lowest ranking, least experienced 
officers. Poorly trained, unenthusiastic officers are sent by 
the hundreds every year to be our first line of defense at visa 
issuing posts abroad.
    Although virtually all FSOs must spend some time 
adjudicating visas, only a minority are actually interested in 
the work. The rest suffer through it with the knowledge that 
the rest of their careers will be spent elsewhere. It is no 
wonder that State cannot competently administer the visa 
function when it intentionally staffs its Consular sections 
with people who desperately do not want to be there.
    Visa work should be done by people who are interested in a 
law enforcement career, although State behaves as if no one 
ever wants to spend their careers adjudicating visas abroad. 
This is simply not true. I found visa work to be an exciting 
and important job where I could use all my skills as an 
attorney to implement and enforce the laws of the United 
States. I know I'm not alone.
    I urge the Congress to support the transfer of the visa 
issuing function to the new Department of Homeland Security 
where visa sections will likely be staffed with dedicated and 
enthusiastic law enforcement officers committed to the national 
security of the United States. Thank you.
    [The prepared statement of Mr. Risch follows:]

    [GRAPHIC] [TIFF OMITTED] T6827.017
    
    [GRAPHIC] [TIFF OMITTED] T6827.018
    
    [GRAPHIC] [TIFF OMITTED] T6827.019
    
    Mr. Weldon. I want to thank both of you for your testimony. 
It was extremely valuable. I'd like you both to comment on this 
question: Under the administration's bill and various proposals 
supported by some Members of Congress, the Homeland Security 
Secretary is given responsibility for overseeing the visa 
function but he must exercise it through the Secretary of 
State. You were spelling that out very, very, clearly.
    For example, the Secretary of Homeland Security cannot even 
issue regulations for visas on his own. The Secretary of State 
must issue the regulations for him as I understand the 
interpretation of the President's proposal. The Secretary of 
State will have direct operational control over the work force 
responsible for implementing those regulations.
    I have several concerns about this fragmented approach. 
First, from a pure managerial perspective, it makes no sense to 
give responsibility for any function to one person and then in 
the same breath tell him that he is solely dependent on a co-
equal cabinet officer whom--and he can't be fired. Discipline 
or reward will actually be carried out by the other function. 
I'm also concerned that leaving operational control of the work 
force with the Secretary of State undercuts the Secretary of 
Homeland Security's authority.
    Put simply, our Foreign Service officers working in the 
Visa Office grow to be more responsive to the person who can 
fire, discipline or reward them versus someone who can't. 
Finally, it also seems to me that this fragmented approach will 
mean that no one can really be held accountable.
    Any comment on this?
    Mr. Tkacik. Well, I'm just looking at the White House's 
analysis of the Homeland Security Act of 2002 which is 
available on the White House red page and Section 403, all it 
says is that the section transfers to the Secretary of Homeland 
Security control over the issuance and denial of visas to enter 
the United States while preserving the traditional authority to 
deny visas to aliens based on foreign policy interests. That's 
the Secretary of State's traditional authority.
    I don't see where the administration's bill wants 
everything to be done by the Secretary of State in the name of 
the Secretary of Homeland Security. The section expressly 
authorizes the Secretary of Homeland Security to delegate his 
authority under the section. It doesn't say what authority or 
even all authority or any authority.
    Mr. Weldon. If I can interrupt you for a second. I think 
you touched on the operative language in your opening 
statement, Mr. Tkacik. You said exclusive authority through the 
Secretary of State is in the language and that's on page 16, I 
believe, of the act as proposed by the President. So as I see 
it, you know, this would be like me holding this hearing and 
all of these people who worked for me not working for me. I 
would tell them I want to have a hearing, I want to have it in 
Kissimmee, but if they missed their flights, they don't invite 
the right witnesses, I have no control over them. I can't fire 
them or I can't discipline them or reprimand them.
    Mr. Tkacik. Well, the way I interpret that is that it says 
exclusive authority to the Secretary of State. I interpret that 
as being the Secretary of Homeland Security can issue the 
regulations but they go through the Secretary of State to the 
visa officers on the line. And as I read the subcommittee's 
markup, that makes much more--it's consistent and I think it 
makes sense.
    Mr. Weldon. Well, I wanted to get at that issue. The 
original amendment did not have that language and we had a 
debate and I was very engaged in that debate. The critical 
issue--the language that they originally proposed was the 
language that came through the judiciary committee and through 
the Committee on International Relations which essentially put 
personnel in these offices but gave them no teeth whatsoever.
    And we reached a middle ground in this language in that we 
put some language in there that gives the Secretary of Homeland 
Security the ability to deny a visa. And to me, that's the only 
way--if you want to move--I would like to move the entire 
function over for the very reasons that you expressed, Mr. 
Risch. If we cannot succeed in doing that as we move this 
legislation through the process and ultimately get it signed 
into law, minimally we need to give the Secretary of Homeland 
Security the ability to deny a visa. Otherwise, all of the 
personnel that DHS puts in the visa offices, they will be 
toothless. And can you comment on that at all? Do you agree 
with that?
    Mr. Risch. I agree 100 percent. It doesn't make any sense 
to keep any of it in the State unless, like you said, the 
Department of Homeland Security would have the ability to 
specify or to control, for lack of a better term, the visa 
issuance made by the Department of State. But I would see that 
as a progress, see that it's working so that the State 
Department has the entire facility. Each part of the embassy 
works part of the State Department, but also the Department of 
Defense has an office, DEA has an office depending on what 
country you're in. I just perceive the Visa Office to be 
Department of Homeland Security office, working completely 
independently from the Secretary of State or at least control 
the visa issuance function in some way.
    Mr. Weldon. You know, that's a good point because one of 
the issues that the State Department keeps raising is Consular 
Affairs does so many other things other than visa issuance. For 
example, if an American citizen has a legal or a health problem 
or should actually pass away overseas, Consular Affairs is very 
engaged in those kind of things. So would it be possible to 
leave Consular Affairs with State but place the visa issuance 
office within Homeland Security?
    Mr. Risch. Absolutely, and I believe that's the way 
Consular Affairs runs now is we settle functions very 
distinctly. In fact, my supervisors in Amsterdam, many never 
worked in the visa office. In fact, my direct supervisor barely 
ruled on any visas at all because he spent his entire career 
working in references and services. So the State Department and 
Bureau of Consular Affairs in fact does separate these things 
out and I would say that American citizen services, passports 
overseas, things of that nature should remain with the State 
Department, but certainly not visa issuance.
    Mr. Weldon. The language that ultimately passed the 
committee was a mere compromise, but I was not happy with it. I 
voted against it. I have a related concern about that language 
in that it's definitely an improvement, but the visa issuance 
officers are still going to be employed by the Secretary of 
State. Therefore, if they do not put security first, there will 
be no way to discipline them whatsoever in this compromise 
proposal. So I am very concerned that if you don't actually put 
the people who are issuing the visas under the Department of 
Homeland Security, we are going to continue to have a problem. 
Do you agree with that?
    Mr. Tkacik. Well, it doesn't necessarily have to be a 
problem. I think that what you're looking at in a systems 
analysis sense is you're looking at the issuance of visas to 
people that shouldn't have them, especially to people who fit a 
terrorist profile. The way to exert the Secretary of Homeland 
Security's authority and guidance is to interpose what you have 
here and again, as I say, in Section B, I guess it's 104--it 
doesn't say here. Anyway, it basically says it gives the 
Secretary of Homeland Security the following function: To 
review any and all such applications, visa applications, prior 
to their adjudication. This has to mean that you have to have 
somebody at the post who goes through every visa application 
and is sort of a watchdog, a monitor.
    I served at the American Consulate General in Hong Kong for 
3 years. At that time in 1985--1983 to 1986, it was the third 
largest visa issuing post in the world. I personally as the 
Chief of the Visa Section went through every nonimmigrant visa 
application that was issued at the end of each day. You'd get 
anywhere from 500 to 2,000 visa applications a day, both 
issuances and refusals. And from that, I could monitor which 
officers were lax, which officers were too strict, which 
officers were not paying attention to the documentation, where 
there was a lack of complete consideration of all the 
information was even on the application itself.
    Now, that was primarily a management tool. It was sort of a 
mid-course correction. It was not designed really to intercede 
and intervene in the visa process. However, it could be. It 
could be extended. There would be a day's wait for a visa and 
somebody would go through a little bit more carefully but have 
the authority to deny the visa; say no, no, this visa should 
not have been issued or this visa has to go back. We have to 
have this person come back for another interview.
    In Hong Kong, we also had a five-person visa fraud unit, 
staffed by a professional Consular officer, FSO-3 rank which is 
like 05 or 04 rank in the military, rank without a major in the 
military and four local national visa fraud investigators. In 
many cases, if I had a question, I could go right down the 
hall, give it to them and say can you call this telephone 
number? Can you go tomorrow down to the office and check where 
this office is? This looks funny to me.
    In those days, I will admit this is 20 years ago, we were 
not looking at terrorism. We were looking for a lot of other 
things that I can't perhaps go into right now, but I was very 
satisfied at the time that the visa officers, the Consular 
officers, especially the fraud officers, had internalized the 
mission that we'd set them out to do. The major mission was to 
prevent visa fraud. The second mission involved other things 
that perhaps we could talk about later if you're interested in 
an informal setting.
    I think it's workable. Foreign Service officers are brought 
into the State Department through a very rigorous examination 
system. You're getting the best and the brightest. And let me 
also sort of correct for the record, at least, to the best of 
my knowledge, their visa training in the State Department's 
Bureau of Foreign Service Institute in their so-called Conja 
and Rosalyn course, their training does involve 2 weeks of visa 
training including at least one full day where they're actually 
pretending to be visa officers and/or pretending to be visa 
applicants trying to circumvent the system.
    That's just a small part of it. In addition to that, all of 
the visa officers go through a 2-day session with the visa 
fraud prevention unit of the Vice Office and, again, I think 
they're well-indoctrinated in sort of the mission of preventing 
visa fraud. I don't see that it's an attitudinal mission. I do 
resent that people say, oh, these people don't want to be there 
and they really don't like it. I think if you tell a Foreign 
Service officer this is his job, he will do it. He just needs 
the right guidance.
    Now, at the very end, let me say that I did listen to 
Secretary Powell's testimony in front of Chairman Berger, I 
believe it was, on Thursday, Wednesday or Thursday, and he was 
asked--Secretary Powell and I'm sure you'll correct me if the 
record is a little bit fuzzy in my mind--but he was asked what 
would you expect the Secretary of Homeland Security to tell 
those officers overseas and you go tell them? And Secretary 
Powell I think was very candid by saying, well, if it's a 
guidance thing, it's a matter of priorities and he would expect 
the Secretary of Homeland Security to give the kind of homeland 
security-oriented guidance that perhaps the State Department 
wasn't giving them. I think that's a very candid, frank and 
accurate look at it.
    It's for this reason that I think that Homeland Security 
has to be integrally involved in the visa process, but it 
doesn't mean that you have to throw the baby out with the bath 
water and that you have to throw a very talented, bright, 
intelligent and with the proper guidance, very well motivated 
Consular Affairs officer with it.
    Sorry about that. I rambling on. I apologize.
    Mr. Weldon. Well, I don't doubt that many of the Consular 
officers working in the visa section, particularly now today 
after September 11th are capable and concerned about protecting 
homeland security. The issue that I'm concerned about is I 
believe the war on terrorism has the potential to go on for 
decades. I have a fear at this time that this could be very 
much like a cold war that goes on for decades and that our 
children and maybe our grandchildren will be engaged in this 
battle in the years ahead. And so that the decisions that we're 
making now have very, very profound implications for our 
ability to function in that arena.
    The decisions that were made by the Kennedy administration 
after World War II were extremely valuable to the establishment 
of the National Security Council. The consolidating of all of 
the defense functions under the Secretary of Defense were very, 
very valuable as we moved into the cold war. We're talking 
about moving INS into Homeland Security. We're talking about 
moving the Coast Guard. We're talking about moving animal and 
plant food inspection service, all these different agencies, 
160,000 and personnel, but as I see it, this is sort of a 
glaring omission on the part of the administration.
    Now, what we've been engaging in in the Congress is all the 
hair-splitting about what should come over and why it should 
stay outside. Well, when you step back and compare that with 
all the other things you really know, there's an inherent lack 
of knowledge. And I think Mr. Risch's recommendation that if 
you're not going to move all of Consular Affairs over, and I 
agree, a lot of the stuff Consular officers do is not homeland 
security-related issues, but you can say ditto about the State 
Department--or the Coast Guard.
    Mr. Tkacik. Customs.
    Mr. Weldon. Customs. I was frankly shocked that the 
President would bring Customs over. But he was so dedicated 
that he was doing this. I'm interested in your recommendation. 
If you're not going to move Consular Affairs, is it feasible to 
move the visa issuance office so that the personnel ultimately 
signing off on these visas every day work for the Secretary of 
Homeland Security? Because I am very upset about this issue of 
accountability. The Lantos/Ros-Lehtinen language was a definite 
improvement and is a definite step in the right direction. It 
gives the authority to deny a visa to the Secretary of Homeland 
Security.
    Let me tell you one of the reasons why I'm very upset about 
that. I got a letter here from Under Secretary or Deputy 
Secretary Richard Armitage. The Justice Department created a 
Foreign Terrorist Tracking Task Force. You've probably seen 
this letter and they recommended a bunch of people be denied 
visas. So the Attorney General sets up this task force at the 
direction of the President and they identified a bunch of 
people that shouldn't be allowed in, but they let them in 
anyway. And they cite all these laws and you got to change the 
laws supposedly, but what he fails to mention is that the 
decision is not appealable in a U.S. court. Am I correct in 
saying that? You can deny a visa and the people who have their 
visas denied have no course of action so whatever. So to me, 
this letter as rationalization is terrible and it speaks loud 
and clear that the Department of State is not capable because 
of their mission model and their responsibility of properly 
protecting us from the terrorist threat as our critical 
parameter.
    Did you want to comment on that at all or add to that?
    Mr. Risch. I agree. When I try to explain this to people, I 
try to say the visa function is sort of like the stepchild that 
nobody wants but is the beneficiary of a large trust. No one 
wants to spend time with the child. Maybe find him some 
clothes, some food or something like that, but because of his 
check that comes every month, you got to keep him around and 
that's what it seems like it is with visas.
    The State Department isn't interested in doing it 
responsibly, doing what needs to be done to enforce the laws of 
the United States. It manipulates the visa function for its own 
diplomatic goals which has a point, but the fact that it 
generates so much revenue for the State Department seems to be 
the reason why they're so interested in holding onto it. The 
way it treats the function, it's just viewed as something that 
must be done. You'd think they would be anxious to get rid of 
this function, but curiously they're not. So it seems it comes 
down to money.
    Mr. Tkacik. I'm not sure how much money it means.
    Mr. Weldon. You've got $500 million a year.
    Mr. Tkacik. I don't think any of it goes to the State 
Department.
    Mr. Weldon. It all goes to the State Department and it 
generates over $600 million of revenue. It's all contained 
within the State Department.
    Mr. Tkacik. But that's part of the State Department's 
budget. It goes back to the general fund of the Treasury and 
then it's reprogrammed.
    Mr. Weldon. I don't know exactly how the cash is handled, 
but unlike some fees that are collected that go into general 
revenue and disappear, these funds are contained within the 
State's operating budget. And I don't know if it just doesn't 
pass through the general Treasury and comes back in, but it is 
a huge issue for the State Department. If the visa function is 
moved out of the State Department, then any State resources 
that are used for visa processing will have to be compensated 
for in their budgeting.
    But, you know, that's not the big issue here and we can 
take care of the money issues. That's what the Congress's 
responsibility is. I can understand State's concern about the 
money. But we can fix that. We've got the budgeting under 
control.
    Mr. Tkacik. The State Department--I remember Secretary of 
State Schultz saying the State Department doesn't have a dime 
or a dollar that's not given to it by the Congress. I dare say 
if it does stay in there, that it's the Congress that lets it.
    Mr. Weldon. Oh, yeah, of course.
    Mr. Tkacik. But I will agree that visas, especially--
particularly now that the visas are not a question of rights. 
You don't have a right to a U.S. nonimmigrant visa with the 
possible exception of a foreign diplomat going to the U.N. This 
is to say U.S. Federal Courts have consistently sustained the 
doctrine of Consular reviewability. When a Consular officer 
denies a visa application, there is no judicial remedy. It's 
interesting to me that Deputy Secretary Armitage would say, 
``it is not enough for another government agency to recommend 
that a visa be denied because that agency objects to the 
applicant's entry.''
    My reading of the law in this case is if you have any 
reason to believe under Section 212(a)(3)(c), that an alien is 
a threat or a problem, the Consular officer can turn it down 
and there's no judicial review for that. It does disturb me 
that the State Department despite a request from another agency 
regarding--I take it in this case, it would be a terrorist 
issue--would still insist on issuing a visa.
    I think that does make your case very well that 
responsibility and authority for issuing and denying visas must 
be given to the Department of Homeland Security and that all 
such visa applications should be reviewed prior to their 
adjudications. To me, that language requires that the 
Department of Homeland Security have a presence overseas and 
that the Department of Homeland Security have control of the 
Visa Office which is the visa policy function.
    Mr. Weldon. Actually, my staff just produced me a section 
of the U.S. Code and it looks like 8 U.S. Code, Section 1182. A 
Consular officer or the Attorney General knows or has 
reasonable facts he believes is engaged in or is likely to 
engage after entry into any terrorist activity, they can deny.
    Mr. Tkacik. Yes.
    Mr. Weldon. So I thought Secretary Armitage's letter to me 
was a smoking gun showing that the State Department should have 
this authority taken away from it and it needs to be moved to 
the Department of Homeland Security when an official at a high 
level like him would send a letter saying even though you, Mr. 
Attorney General, have designated these people as potential 
terrorists, we're still going to let them in. If this doesn't 
make the case, I don't know what does.
    So I want to thank both of our witnesses for your 
testimony. Is there anything you want to add for the record 
before we adjourn the hearing?
    Mr. Risch. I want to add two things, some factual issues. 
The first is about the training that was partly clarified. 
Consular officers when I worked in the process and I believe 
it's unchanged go through 5 weeks of training. Two weeks are 
dedicated to nonimmigrant visas, which is what we're talking 
about today and one full day is spent interviewing. I think 
that's where the belief is that only half a day or a day is 
spent on interviewing techniques, but the rest of it is spent 
learning the law concerning visa adjudication.
    We have immigrant visas, green cards moving permanent to 
America and then 3 weeks on American citizens passports, 
Americans dying overseas, that sort of thing. Another issue was 
the preservation of visa records. Visa issuance records are not 
destroyed after 1 year. Sometimes the paper documents are 
shredded. After September 11th, that happened at all posts. But 
currently, all visas back 7 or 8 years are preserved 
chronologically and we now have access to them so one can go 
back to see who and how that visa was issued.
    Mr. Tkacik. I've been out of it for a while. The two things 
that I would want to raise are, one, that the Consular Affairs 
function in consuls from the fifties through the sixties did 
have a very rigid security mission. In those days, it was a 
cold war mission and I do remember my first post in 1971 to 
1973.
    Mr. Weldon. You talking about the cold war.
    Mr. Tkacik. Cold war. I'm sorry. One of our major tasks was 
the monitoring of the members of the Communist party and 
potential espionage. The consuls historically have had a 
security issue and I think they historically could have another 
one in the future. And then the second point I would make, at 
the risk of sounding self-contradictory, I'm trying to think of 
what Consular functions do not relate to homeland security. 
Passport function, I think that relates to homeland security. 
Protection of Americans overseas, especially pulling together 
the American citizen warning system overseas, I think that has 
a fairly clear homeland security component. Judicial 
assistance, interrogatories, depositions, I think you could say 
that's part of it.
    So all things being equal, I don't see that you couldn't 
take the entire Consular service and put it in Homeland 
Security. My point is I don't see that it's workable in the 
present situation, but at the very least, you need the visa 
office in Homeland Security.
    Mr. Weldon. When both of you went through your training, 
were you told that the visa issuance process was our first line 
of defense? I realize when you went through many years ago, 
there was a cold war. You went through right before that. Was 
it presented in the context of keeping bad guys out of the 
country?
    Mr. Risch. No. It was presented more as we were keeping 
illegal immigrants out of the country. That was the thrust of 
all of our training. The bad guy/terrorist part of the training 
didn't really exist. It wasn't taken out of the hands of consul 
officers even after September 11th where our name-check system 
would reveal to us whether or not someone had a name or 
birthday that was suspect. And at that point they would meet 
with them and turn the information over to the State Department 
and ask how to proceed. We were never trained at all.
    Mr. Weldon. So you were there after September 11th?
    Mr. Risch. Yes, sir.
    Mr. Weldon. And you'd get an applicant and there would be a 
name-check and the computer said it was suspect, you would 
never be provided any information about the details of that; 
you would just forward it on to your supervisor?
    Mr. Risch. I would then draft a telegram and ask for more 
information about that individual.
    Mr. Weldon. Did they provide you with information?
    Mr. Risch. Sometimes they did if they weren't classified.
    Mr. Weldon. You just made another case why visa issuance 
should be with the Department of Homeland Security. I think 
that officers on the front line should have access to all of 
that information, including classified information, to help--to 
better enable them to make a denial for a suspicious person.
    I want to thank both of you. It's been very, very 
informative to have this discussion. Without objection, the 
Chair will keep the hearing record open for 7 days so that 
Members may submit written questions for the record to our 
witnesses. Witnesses may also submit written testimony during 
this period.
    The panel is excused with the committee's great thanks and 
appreciation for your time. The hearing is now adjourned.
    [Whereupon, at 11:15 a.m., the subcommittee was adjourned.]


</pre></body></html>
